No. 20-255
IN THE SUPREME COURT OF THE UNITED STATES
MAHANOY AREA SCHOOL DISTRICT, PETITIONER
v.
B. L., A MINOR , BY AND THROUGH HER
FATHER, LAWRENCE LEVY AND HER MOTHER,
BETTY LOU LEVY
___________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MOTION OF THE UNITED STATES FOR LEAVE TO PARTICIPATE IN ORAL
ARGUMENT AS AMICUS CURIAE AND FOR DIVIDED ARGUMENT, via e-mail and
first-class mail, postage prepaid, this 29th day of March, 2021.
[See Attached Service List]
Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 29, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If
that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0255
MAHANOY AREA SCHOOL DISTRICT
B.L. A MINOR, BY AND THROUGH HER FATHER
LAWRENCE LEVY, ET AL

LISA SCHIAVO BLATT
WILLIAMS & CONNOLLY LLP
725 12TH STREET, NW
WASHINGTON, DC 20005
202-434-5050
LBLATT@WC.COM
KELSI BROWN CORKRAN
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, N.W.
WASHINGTON, DC 20005
202-339-8400
KCORKRAN@ORRICK.COM
GREGORY GEORGE GARRE
LATHAM & WATKINS LLP
555 11TH STREET, NW
SUITE 1000
WASHINGTON, DC 20004
202-637-2200
GREGORY.GARRE@LW.COM
CHRISTOPHER BLEWER GILBERT
THOMPSON & HORTON LLP
3200 SOUTHWEST FREEWAY
SUITE 2000
HOUSTON, TX 77027
713-554-6744
CGILBERT@THOMPSONHORTON.COM

DEBORAH J. LA FETRA
PACIFIC LEGAL FOUNDATION
930 G STREET
SACRAMENTO, CA 95814
916-419-7111
DLAFETRA@PACIFICLEGAL.ORG
DOUGLAS S. MARTLAND
COMMONWEALTH OF MASSACHUSETTS
1 ASHBURTON PLACE
20TH FLOOR
BOSTON, MA 02108
617-963-2062
DOIUGLAS.MARTLAND@MASS.GOV
MICHAEL HUGH MCGINLEY
DECHERT LLP
1900 K STREET, NW
WASHINGTON, DC 20006
202-261-3378
MICHAEL.MCGINLEY@DECHERT.COM
ALICE MARGARET O'BRIEN
NATIONAL EDUCATION ASSOCIATION
1201 16TH STREET, N.W.
WASHINGTON, DC 20032
202-822-7035
AOBRIEN@NEA.ORG
EDDIE TRAVIS RAMEY
BURR & FORMAN LLP
420 NORTH 20TH STREET
WELLS FARGO TOWER
SUITE 3400
BIRMINGHAM, AL 35203
205-251-3000
TRAMEY@BURR.COM

DAVID BERYL RUBIN
THE BUSCH LAW GROUP LLC
450 MAIN STREET
P.O. BOX 4579
METUCHEN, NJ 08840
908-896-4482
DRUBIN@BUSCHLAWGROUP.COM
JAY ALAN SEKULOW
AMERICAN CENTER FOR LAW AND JUSTICE
201 MARYLAND AVE., NE
WASHINGTON, DC 20002
202-546-8890
SEKULOW@ACLJ.ORG
MISHA TSEYTLIN
TROUTMAN SANDERS LLP
227 W. MONROE
SUITE 3900
CHICAGO, IL 60606
312-759-5947
MISHA.TSEYTLIN@TROUTMAN.COM
WITOLD J. WALCZAK
ACLU OF PENNSYVANIA
P.O. BOX 23058
PITTSBURGH, PA 15222
412-681-7864
VWALCZAK@ACLUPA.ORG

